ANTHONY & PARTNERS 201 N. FRANKLIN STREET

ATTORNEYS AT Law Surre 2800
Tampa, FL 33602
Main: 813-273-5616
Direct: (813) 273-5066 Fax: 813-221-4113
JANTHONY @ANTHONYANDPARTNERS.COM ANTHONYANDPARTNERS.COM

February 19, 2020
VIA ELECTRONIC FILING

The Honorable Scott S. Harris
Clerk of the Court

Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

Re: Lisa M. Phoenix v. Regions Bank
Supreme Court of the United States

Docket No. 19-815
Dear Mr. Harris:

I am writing on behalf of the respondent, Regions Bank (“Regions”), to request a second
extension of time in which to file the opposition (the “Opposition Brief”) to the petition for a
writ of certiorari (the “Cert Petition”) filed by the petitioner, Lisa M. Phoenix (“Phoenix”), in the
above-referenced matter, pursuant to Supreme Court Rule 30(4). The Cert Petition was filed on
December 24, 2019. On January 15, 2020, Regions requested an initial thirty (30) day extension
of time in which to file the Opposition Brief. On January 17, 2020, Regions initial request was
granted, extending the deadline to file the Opposition Brief to February 26, 2020, which remains
the current deadline unless the relief requested herein is granted.

On behalf of Regions, I am requesting a second thirty (30) day extension, through March
30, 2020, pursuant to Supreme Court Rule 30(4). An extension of that length is not sought for
purposes of delay, but instead is being sought because Regions and Phoenix are amongst the
parties currently involved in settlement discussions regarding inter alia matters relating to the
Cert Petition. Accordingly, the requested extension will allow for settlement discussions to be
fully explored and potentially elevate the need for any further resources or time to be expended
by the Court or the parties regarding the above-referenced action.

Counsel for petition has advised that Phoenix consents to this request.

Very truly yours,

a

ec: Mark Thomas Stancil, Esq., counsel of record for petitioner
Donald Burke, Esq., counsel for petitioner
